<html>
<title> - TO STRENGTHEN AND CLARIFY THE COMMERCIAL, CULTURAL, AND OTHER RELATIONS BETWEEN THE UNITED STATES AND THE PEOPLE OF TAIWAN, AS CODIFIED IN THE TAIWAN RELATIONS ACT, AND FOR OTHER PURPOSES; AND TO PROVIDE TAIWAN WITH CRITICALLY NEEDED UNITED STATES-BUILT MULTIROLE FIGHTER AIRCRAFT TO STRENGTHEN ITS SELF-DEFENSE CAPABILITY AGAINST THE INCREASING MILITARY THREAT FROM CHINA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
TO STRENGTHEN AND CLARIFY THE COMMERCIAL, CULTURAL, AND OTHER RELATIONS 
BETWEEN THE UNITED STATES AND THE PEOPLE OF TAIWAN, AS CODIFIED IN THE 
  TAIWAN RELATIONS ACT, AND FOR OTHER PURPOSES; AND TO PROVIDE TAIWAN 
 WITH CRITICALLY NEEDED UNITED STATES-BUILT MULTIROLE FIGHTER AIRCRAFT 
   TO STRENGTHEN ITS SELF-DEFENSE CAPABILITY AGAINST THE INCREASING 
                       MILITARY THREAT FROM CHINA

=======================================================================


                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                        H.R. 2918 and H.R. 2992

                               __________

                           NOVEMBER 17, 2011

                               __________

                           Serial No. 112-116

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______





                  U.S. GOVERNMENT PRINTING OFFICE
71-264                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 2918, To strengthen and clarify the commercial, cultural, 
  and other relations between the United States and the people of 
  Taiwan, as codified in the Taiwan Relations Act, and for other 
  purposes.......................................................     2
  Amendment in the nature of a substitute to H.R. 2918 offered by 
    the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida, and chairman, Committee 
    on Foreign Affairs...........................................    26
  Amendment to H.R. 2918 offered by the Honorable Gerald E. 
    Connolly, a Representative in Congress from the Commonwealth 
    of Virginia..................................................    28
H.R. 2992, To provide Taiwan with critically needed Untied 
  States-built multirole fighter aircraft to strengthen its self-
  defense capability against the increasing military threat from 
  China..........................................................    29
  Amendment to H.R. 2992 offered by the Honorable Gerald E. 
    Connolly.....................................................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    42
Markup minutes...................................................    43
The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California: Prepared statement on H.R. 2918.......    45
The Honorable Gerald E. Connolly: Prepared statement on H.R. 2992    48
TO STRENGTHEN AND CLARIFY THE COMMERCIAL, CULTURAL, AND OTHER RELATIONS 
BETWEEN THE UNITED STATES AND THE PEOPLE OF TAIWAN, AS CODIFIED IN THE 
  TAIWAN RELATIONS ACT, AND FOR OTHER PURPOSES; AND TO PROVIDE TAIWAN 
 WITH CRITICALLY NEEDED UNITED STATES-BUILT MULTIROLE FIGHTER AIRCRAFT 
   TO STRENGTHEN ITS SELF-DEFENSE CAPABILITY AGAINST THE INCREASING 
                       MILITARY THREAT FROM CHINA

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
Pursuant to notice the committee meets this morning to mark up 
two strongly bipartisan measures, H.R. 2918, the Taiwan Policy 
Act of 2011; and H.R. 2992, the Taiwan Airpower Modernization 
Act of 2011. Members have before them copies of both bills as 
well as the three brief bipartisan amendments that were 
provided to your offices earlier this week.
    According to the expedited procedures shared with everyone 
yesterday, we will consider and approve all of those measures 
en bloc and then I will recognize myself, the ranking member, 
and any other member seeking recognition for remarks. All 
members are given leave to insert written remarks into the 
record, should they choose to do so.
    And so without objection, the following measures are 
considered as read and will be considered en bloc: H.R. 2918, 
the Taiwan Policy Act of 2011; amendment 97 to H.R. 2918, 
offered by the Chair; amendment 105 to H.R. 2918, offered by 
Mr. Connolly; H.R. 2992, the Taiwan Airpower Modernization Act 
of 2011; and amendment 106 to H.R. 2992, offered by Mr. 
Connolly.
    [The information referred to follows:]<greek-l>H.R. 
2918 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Ros-Lehtinen. The Chair moves that the measures 
just listed be adopted by the committee. All those in favor say 
aye.
    [Chorus of ayes.]
    All opposed no.
    In the opinion of the Chair, the ayes have it and the bills 
and amendments considered en bloc are approved. Without 
objection, H.R. 2918 and H.R. 2922, as amended, will each be 
reported as a single amendment in the nature of a substitute 
and staff are directed to make technical and conforming 
changes.
    I will recognize members who wish to make statements on 
these measures beginning with myself and the ranking member.
    The committee just adopted legislation relating to U.S.-
Taiwan relations and the defense needs of Taiwan including H.R. 
2918, the Taiwan Policy Act of 2011. This legislation is 
designed to address the drift and lack of strategic thinking 
that has hurt the relationship in recent years. Although Taiwan 
maintains the staunch support of its many friends in Congress, 
the relationship has been placed on the defensive this past 
year by a growing number of policy revisions. Apologists who 
would use Taiwan as a bargaining chip to placate a rising China 
started voicing their views in the Journal of Foreign Affairs 
at the beginning of the year and have continued with an article 
last week titled, ``To Save Our Economy, Ditch Taiwan.''
    It was due to concerns over these voices of appeasement 
that I felt it necessary to further strengthen and clarify our 
relations with the people of Taiwan by introducing the Taiwan 
Policy Act, and I note that in the audience we have Mr. Lester 
Wolff, a former Member of Congress, who this morning gave me 
his book, an analytic compilation with documents on subsequent 
developments on the legislative history of the Taiwan Relations 
Act, which has been the cornerstone of U.S.-Taiwan policies. 
Good to see you, Congressman Wolff.
    These concerns have only been amplified by the 
administration's regrettable and short-sighted decision not to 
sell the next generation of F-16 CD fighters to Taiwan despite 
growing evidence of China's increasing military threat to the 
island. Taiwan needs those F-16s, and she needs them now, to 
defend the skies over the Taiwan Strait. And Taiwan also needs 
diesel submarines, and she needs them now, to protect her 
territorial waters from the rapidly expanding PLA navy. And 
Secretary of Defense Leon Panetta's comments last month in Bali 
that we gave Beijing ``a heads up'' before the formal 
announcement on armed sales to Taiwan, despite assurances to 
the contrary given by administration witnesses at a prior 
committee hearing, raises further concerns about adherence to 
the Taiwan Relations Act and Ronald Reagan's Six Assurances.
    The bill considered and adopted today will help ensure that 
Taiwan's peace, prosperity, and security will be maintained for 
the next three decades and beyond. It would also further 
strengthen commercial relations between the United States and 
the people of Taiwan. While American trade interests in Asia 
stagnate, Beijing is expanding its own commercial interests 
even further out into the Pacific. Washington cannot cede 
supremacy in economic influence over the Pacific to Beijing. 
This legislation would also expedite people-to-people ties that 
are so vital to strengthening our bilateral relations by 
including Taiwan in the Visa Waiver Program consistent with our 
homeland security requirements.
    By building on the firm foundation laid by the Taiwan 
Relations Act over three decades ago, the Taiwan Policy Act 
will serve to move relations between the peoples of the United 
States and Taiwan to new levels in the areas of security, 
trade, and international travel. This committee showed its 
support for the people of Taiwan, for the sale of F-16 fighters 
to this island democracy, and for the spirit of the Taiwan 
Relations Act by taking favorable action on this legislation.
    Similarly, the committee also considered H.R. 2992, the 
Taiwan Airpower Modernization Act today. This important 
legislation was introduced by Congresswoman Granger, the 
distinguished chair of the Subcommittee on State, Foreign 
Operations of the Appropriations Committee. As the name of the 
title suggests, this is straight-forward legislation. It simply 
requires that the President carry out the sale of no fewer than 
66-16C/D multiple fighter aircraft to Taiwan.
    As members are aware, under the terms of the Taiwan 
Relations Act, the U.S. is obligated to make available defense 
articles and services necessary for Taiwan's self defense. In 
order to meet this requirement, the U.S. must provide Taiwan 
with the equipment necessary to help the island nation defend 
its own airspace.
    While the recent agreement by the U.S. to upgrade Taiwan's 
existing fleet of F-16s is a step in the right direction, 
Taiwan also urgently needs new advanced combat aircraft to help 
meet the growing menace from communist China. Accordingly, it 
is long past due for the executive branch to cease its 
dithering on this issue, and sell Taiwan the new F-16s it has 
sought since the year 2006. I strongly support passage of this 
legislation.
    And now I'm pleased to recognize my friend, the ranking 
member, for comments that he might like to make. Mr. Berman.
    Mr. Berman. Well, thank you very much, Madam Chairman, for 
scheduling the markup and particularly thank you for doing this 
in a way that I know since I'm a strong supporter of both bills 
that nothing I say can screw up its passage. I am a great 
admirer of what the Taiwanese people have accomplished and 
therefore am a strong supporter of Taiwan and both of these 
bills will bolster our bilateral relationship with an important 
friend and ally.
    H.R. 2992, the Taiwan Airpower Modernization Act of 2011 
seeks to provide Taiwan with advanced F-16 CD fighter jets in 
order to strengthen Taiwan's self-defense capability against 
the increasing military threat from mainland China.
    I welcome the Obama administration's decision to upgrade 
Taiwan's existing fleet of F-16 fighters, but view that as only 
a first step. Taiwan needs more advanced F-16s to help deter 
and if necessary defend against an attack from China. And it 
needs them sooner rather than later, as China has still not 
renounced the use of military force to resolve its longstanding 
dispute with Taiwan.
    When this committee held a hearing on Taiwan last month, 
the administration stated that it had not closed the door to 
selling new F-16 CDs to Taiwan and would continue to evaluate 
Taipei's interest in acquiring these advanced fighter jets. 
H.R. 2992 is the logical next step in ensuring Taiwan can 
maintain a sufficient defensive capability and in satisfying 
Taiwan's interest in procuring these new fighters.
    Members on both sides of the aisle have a strong commitment 
to maintaining Taiwan's security in the face of the growing 
Chinese military threat and this bipartisan bill is a vehicle 
to express Congress' commitment.
    The other Taiwan bill before us, H.R. 2198, the Taiwan 
Policy Act of 2011, your bill, Madam Chairman, is intended to 
strengthen and update certain aspects of the U.S.-Taiwan 
relationship. I'm especially pleased to see that it includes a 
provision that would allow senior leaders of Taiwan to visit 
the United States, a problem that has long needed a remedy. Why 
is it that the President of a democratic partner of the United 
States is not allowed to visit this country, except as part of 
transit stops to other countries? It's time that all Taiwanese 
officials are afforded the proper respect and be allowed to 
visit the United States.
    Your bill, Madam Chairman, also includes provisions to 
maintain U.S. support for Taiwan's meaningful participation in 
international organizations like the World Health Assembly and 
the International Civil Aviation Organization. I have long been 
a supporter of Taiwan's participation in the World Health 
Organization and am pleased to see this act continues U.S. 
policy to ensure Taiwan's continued participation in the WHA 
and other international organizations in the future. Both of 
these bills before the committee today will continue the strong 
U.S. support for Taiwan and maintain the close ties between the 
U.S. and the people of Taiwan. I urge--I don't need to, my 
colleague, I'm glad my colleague supported these pieces of 
legislation and I yield back.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Berman. Can I have one----
    Chairman Ros-Lehtinen. Yes, sir. Yes, sir.
    Mr. Berman. I've got a few seconds here. Just on the larger 
issue, one thing I do want to say is it is quite evident both 
on the general issue of America's presence in the Western 
Pacific that this administration is deeply committed to 
maintaining and strengthening that presence this very week. And 
by the administration's own commitments with respect to any 
defense cuts that may be coming, none of those cuts, none of 
that presence is going to be reduced. It's being strengthened 
and part of the demonstration of that is the closer and closer 
ties that many of the countries of East Asia are seeking with 
the United States on that issue. So on this issue, I think we 
have nothing to fear. The administration, I think, is actually 
pursuing this quite diligently and effectively. With that, I 
yield back.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Berman.
    Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. I pass. Thank you very much.
    Chairman Ros-Lehtinen. Mr. Royce is recognized for any 
statements you might like.
    Mr. Royce. Thank you, Madam Chairman. Thank you both for 
your leadership on Taiwan, Madam Chairman. Thanks for holding 
this markup. This legislation, of which I'm an original co-
sponsor, comes at a pretty important time, because there's an 
academic debate that's brewing. You see it in the papers about 
``abandoning Taiwan.'' According to some, we should have the 
United States back away from Taiwan to supposedly improve 
relations with China. I think members understand that stepping 
back from Taiwan would not result in China taking a firmer line 
on North Korea, which is a concern to us, or on Iran's nuclear 
programs. It would have no impact on that. It wouldn't get 
China to drop its predatory economic policies. What I'm 
concerned it might do, it might be more likely that China would 
conclude that the U.S. is weak and can be manipulated.
    I would argue if you really think it through, when you 
reflect on this, that that could be the result. It is 
interesting that tensions between China and its other neighbors 
have heightened. You have to think this through in the context 
of this hypothesis on abandoning Taiwan because that reality, 
those heightened tensions, undercuts the theory that China's 
dispute with Taiwan is the only impediment to its peaceful 
rise. Bad ideas need to be challenged before they take grip. 
Moving this bill forward, demonstrating our broad commitment to 
Taiwan pours cold water over such naive thinking.
    I do regret, however, that another committee forced us to 
walk back the introduced language on U.S.-Taiwan economic 
relations. Earlier this year we heard testimony on how a single 
issue representing less than 1 percent of our bilateral trade 
relationship is being used to hold up our entire trade 
relationship. This is our ninth largest trading partner, 
colleagues. We should be talking and working to address U.S. 
economic interests. But that said, this is a good bill which we 
should advance. I urge its passage. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Royce. Mr. 
Chabot is recognized.
    Mr. Chabot. Thank you, Madam Chair. I thank the chair and 
the ranking member for their statements and I agree with 
virtually every thing that each one of them said.
    Chairman Ros-Lehtinen. But mostly with my words.
    Mr. Chabot. Mostly with yours, but Mr. Berman was 
particularly articulate this morning as well. But I have been 
with one of the co-chairs of the Congressional Taiwan Caucus 
for about 10 years before my 2-year involuntary sabbatical and 
now back, so I've had a great interest and been there probably 
8 or 9 times over my 15 years here in Congress and have watched 
this relationship between Taiwan and the Peoples Republic of 
China as China has increased from I think it was 500, 600 
missiles when I first came in '95 to over 1,400 missiles that 
are aimed at Taiwan right now.
    Let's face it, as much as we trade with China over the next 
century and probably beyond that, they're going to be our 
principal rival on this planet and it can be a cooperative 
relationship, we can trade back and forth to the benefit of 
both countries and the world or China can continue to go down 
this path where they're flexing their muscle in the region. 
Other countries, I think, are being intimidated. They've tried 
to bully Taiwan for years and years now. So we have to be there 
for our allies. Taiwan has been a strong ally. Does rely upon 
the United States to a considerable degree. In general, we've 
been a reliable ally, but to be perfectly honest here, again, I 
think relative to the planes we should have given them, the 
most advanced technology, and I would encourage us to do that 
as quickly as possible in that area. I'll yield to the 
gentleman from California.
    Mr. Royce. I thank the gentleman from Ohio for yielding. I 
wanted to add my support for some of the points that Mr. Berman 
made about the F-16 sales. In the administration's reluctance 
to engage and follow through on those sales, I think that that 
is a necessary credible deterrent. I think we have certain 
responsibilities here that need to be fulfilled. I hope we can 
return to this issue; we find an avenue to do it because we 
have not taken the steps necessary to really send that message 
and create that credible deterrence. Thank you.
    Mr. Chabot. I'll yield back.
    Chairman Ros-Lehtinen. Thank you so much and I want to 
thank the members and the staff on both sides of the aisle for 
the good work and the cooperation that went into these bills in 
today's markup. Having concluding our business, the committee 
is adjourned. Thank you gentleman and ladies.
    [Whereupon, at 10:25 a.m., the markup was concluded.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
